No.

3u the bupreme Court of the Iluiteb iptatefs
Lincoln Rymer, Petitioner
v.
UT at Martin, et al., Respondents
On Petition for Certiorari
to the
United States Court of Appeals for the Sixth Circuit

APPENDIX TO
VERIFIED PETITION FOR
EXTRAORDINARY
WRIT OF CERTIORARI

Lincoln Rymer
154 Fowler Cemetery Lane
Hurricane Mills, TN 37078
931-296-3001

Table of Contents
APPENDIX A: Tenn. Court of Appeals order

la

APPENDIX B: Tenn. Chancery Court order

lb

APPENDIX C: Declaration

lc

APPENDIX D: Middle District of Tenn. order

ld

APPENDIX E: Chief Judge Cole's order

le

APPENDIX F: Docket, Rymer v. Lemaster

if

APPENDIX G: Docket, Leach v. CCA

lg

APPENDIX H: Docket, Bellsouth v. Nashville

lh

APPENDIX I: Middle District of Tenn. order

1i

APPENDIX J: Sixth Circuit mandamus order

11

APPENDIX K: Sixth Circuit order

lk

APPENDIX L: Sixth Circuit order on rehearing

11

APPENDIX M: Tenn. Const., art. II, ยง 31

lm

APPENDIX N: International Covenant on Civil and
Political Rights
In
APPENDIX 0: 20 U.S.C. ยง1011a

lo

APPENDIX P: 42 U.S.C. ยง2000d-7

1p

APPENDIX I
UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Filed 05/21/18
LINCOLN RYMER,
Plaintiff
v.
ROBERT LEMASTER, et al.,
Defendants.
Case No. 3:16-cv-02711
Judge Campbell
Magistrate Judge Frensley
ORDER
This case has been reassigned to the undersigned Judge.
Pending before the Court are Plaintiffs Motion
To Alter Or Amend Judgment (D.E. 132) And Motion
To Amend Complaint (Doc. No. 134); Response Of
Defendants Robert LeMaster, Doug Sterrett, Laura
Sterrett and the University Of Tennessee (Doc. No.
138);Defendant Oldham's Response (Doc. No. 140);
and Plaintiffs Reply (Doc. No. 141). For the reasons
set forth below, Plaintiffs Motion To Alter Or Amend
Judgment (D.E. 132) And Motion To Amend Complaint (Doc. No. 134) is DENIED.
Through his Motion, Plaintiff seeks to alter or
amend an Order (Doc. No. 130) entered by Judge Victoria A. Roberts that dismissed Plaintiffs claims in

this case. Plaintiff cites Rule 59(e) and Rule 60(b) of
the Federal Rules of Civil Procedure to support his
request for reconsideration of Judge Roberts' Order.
Plaintiff alternatively requests leave to file an
amended complaint.
To obtain relief under Rule 59(e), the movant
must show that there is (1) a clear error of law; (2)
newly discovered evidence; (3) an intervening change
in controlling law; or (4) a need to prevent manifest
injustice. Kreipke v. Wayne State Univ., 807 F.3d
768, 774 (6th Cir. 2015). The motion should not be
used to relitigate previously considered issues, to
submit evidence which could have been previously
submitted in the exercise of reasonable diligence, or
to attempt to obtain a reversal of a judgment by offering the same arguments previously presented.
Exxon Shipping Co. v. Baker, 554 U.S. 471, 485 n. 5,
128 S. Ct. 2605, 2617, 171 L. Ed. 2d 570 (2008);
J.B.F. by & through Stivers v. Kentucky Dep't of
Educ., 690 F. App'x 906, 907 (6th Cir. 2017). Rule
60(b) provides that a court may relieve a party from
an order for the following reasons: (1) mistake, inadvertence, surprise or excusable neglect; (2) newly discovered evidence that, with reasonable diligence,
could not have been discovered earlier; (3) fraud,
misrepresentation or misconduct by an opposing
party; (4) the judgment is void; (5) the judgment has
been satisfied, released or discharged; or (6) any
other reason that justifies relief.
Plaintiff filed this action against the University of Tennessee and several individual defendants,
alleging 37 causes of action, based on events that allegedly occurred from 1998-2002 when he was an engineering student at the university. (Doc. No. 130, at
1). In her Order, Judge Roberts denied defendants'
(2i)

request for dismissal on statute of limitations
grounds, but granted dismissal on Eleventh Amendment grounds of all claims against the individual defendants in their official capacities, and all claims
against the university except Plaintiff's Title IX
claim. (Id., at 3-5). Judge Roberts also dismissed
Plaintiffs Title IX claim against the university and
his federal law claims against the individual defendants, sua sponte, for failure to state a claim under
Federal Rule of Civil Procedure 12(b)(6), and for failure to establish subject matter jurisdiction under
Rule 12(b)(1), because she concluded that the allegations were "clearly baseless." (Id., at 6-8). In
reaching her decision, Judge Roberts described
Plaintiffs claims as follows:
Plaintiff generally alleges that the individual Defendant professors, inter alia, improperly accessed
and disseminated information from his computer
search history, assigned him an impossible project,
and engaged in a 'Flirty Fishing' conspiracy to
wrongfully convert him to Christianity.
Like Plaintiff's other claims, the essence of his
Title IX claim is that the University should be liable
because its professors allegedly set in motion a conspiracy to use information regarding his sexual preferences to send an attractive
girl fitting his preferences to him in order to seduce
him, cause him to fall in love, cause him to convert to
her religion, and essentially brainwash him such
that he was distracted from his studies, excluded
from participation, subjected to a hostile educational
environment and denied educational benefit. He says
Defendants caused him to drop out of school and
move '1200 miles away to work in the NYC area for a
$12/hr laboring job.'
(3i)

Plaintiff essentially classifies this seduction
and its resultant effects as sexual harassment and
targeted discrimination, for which he seeks to hold
the University liable under Title IX. Plaintiff also
seeks to hold the University liable for its allegedly
negligent hiring and retention of the professors, and
its alleged failure to train and supervise the professors.
(Id., at 6-7). Judge Roberts also declined to exercise
supplemental jurisdiction over Plaintiffs state law
claims. (Id., at 8-9).
Plaintiff argues that Judge Roberts erred in
dismissing his claims because her denial of Defendants' statute of limitations argument necessarily
means that his claims are not frivolous. In denying
Defendants' request to dismiss based on the statute
of limitations, Judge Roberts explained that Plaintiff
had sufficiently alleged that the limitations period
should be tolled until 2015 or 2016 due to his mental
incompetence. (Id., at 3-4). That Plaintiffs allegations were sufficient to satisfy a tolling argument,
however, does not mean they were sufficient to state
a claim for relief.
Plaintiff also argues that Judge Roberts failed
to consider all his claims, including his claims
against the individual defendants in their individual
capacities. Plaintiffs claims, including those against
the individual defendants in their individual capacities, were all based on the facts Judge Roberts found
to be "frivolous, wholly incredible, irrational and devoid of merit." (Id., at 8). Thus, Judge Roberts appropriately considered all Plaintiffs claims.
Plaintiff argues that the Court should declare
sovereign immunity under the Eleventh Amendment
to be unconstitutional, and that Judge Roberts
(4i)

should have held an evidentiary hearing on the issue
of whether the University of Tennessee is a state
agency. The authority cited by Plaintiff to support
these arguments, however, does not suggest that
Judge Roberts' conclusions were in error.
Plaintiff has filed a news article about the
[Western Division] Tennessee Court of Appeals having met [held court and a class reunion] on the campus of UT Martin, and characterizes the filing as
" newly discovered evidence." (Doc. No. 135, at 23-24).
This article demonstrates, according to Plaintiff, that
"Tennessee state courts are virtually an extension of
UT's internal administrative hearing machinery."
(Doc. No. 135, at 12). Even if the Court considers this
article as "newly discovered evidence," however, it
does not suggest error in the conclusions reached by
Judge Roberts.
Plaintiff contends that he should be allowed to
the deficiencies" identified by Judge Roberts
through the filing of an amended complaint. (Doc.
No. 135, at 15). Plaintiff indicates that he seeks to
add claims for violation of the Age Discrimination
Act of 1975, the Americans With Disabilities Act, 42
U.S.C. ยง 1983, and strict liability, and that the
amendment will change the declaratory relief sought
and narrow the issues. (Id., at 16). More specifically,
Plaintiff seeks to add the following allegations: that
he was discriminated against based on his young age
when he entered college; that he belonged to a
class" of those critical of the engineering
program; that his class assignments violated his procedural and substantive due process rights, and constituted cruel and unusual punishment; that he was
denied equal protection through discriminatory
"cure

"suspect

(5i)

testing and grading; that Defendants violated the Establishment Clause through discriminatory testing
and grading based on his having identified a file as a
"bastard file;" and that Defendants are subject to
strict liability for admitting him to college, an ultrahazardous activity, at such a young age. (Id., at 1721).
The Sixth Circuit has held that it is appropriate to deny leave to amend where the complaint as
amended could not withstand a Rule 12(b)(6) motion
to dismiss. Islamic Ctr. of Nashville v. Tennessee,
872 F.3d 377, 386-87 (6th Cir. 2017). The amendments proposed by Plaintiff do not cure the deficiencies identified by Judge Roberts, but rather add additional allegations and claims that could not withstand a motion to dismiss.
Therefore, the Court denies Plaintiff's request
to file an amended complaint. Finally, Plaintiff argues that Judge Roberts erred in dismissing his
claims, sua sponte, without providing him with notice of her intent to do so, and granting him an
opportunity to amend his complaint. As this Court
has fully considered Plaintiffs arguments, as well as
his request to amend, any error on the part of Judge
Roberts in that regard is harmless.
It is so ORDERED.
WILLIAM L. CAMPBELL, JR.
UNITED STATES DISTRICT JUDGE

(6i)

APPENDIX J
No. 18-5650
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Filed: 07/30/2018
In re: LINCOLN RYMER,
Petitioner.
ORDER
Before:
ROGERS, KETHLEDGE, and NALBANDIAN,
Circuit Judges.
Lincoln Rymer has pending before this court a
direct appeal from the dismissal of a civil action he
brought against the University of Tennessee and others arising from events that occurred when he was a
student at the university many years ago. See Case
No. 18-5655. In this action, he petitions for a writ of
mandamus seeking to stay his direct appeal, as well
as to mandate the recusal of the district court judge,
to reverse the finding that his complaint was frivolous, to strike or redact certain material from the district court record, and to have the redacted record be
utilized for purposes of the appeal. Because Rymer
cannot demonstrate entitlement to relief unavailable
in his direct appeal, his petition is denied.

(1j)

"Mandamus is a drastic remedy that should be
invoked only in extraordinary cases where there is a
clear and indisputable right to the relief sought."
United States v. Young, 424 F.3d 499, 504 (6th Cir.
2005). "Although a writ of mandamus should not
generally be used to review the discretionary decisions of trial courts, the writ may be issued where
the trial court's actions amount to a clear abuse of
discretion." In re Ford, 987 F.2d 334, 341 (6th Cir.
1992) (internal citation omitted). To warrant relief in
mandamus, Rymer must show his right to the writ is
"clear and indisputable." Cheney v. U.S. Dist. Court
for D.C., 542 U.S. 367, 381 (2004) (quoting Kerr v.
U.S. Dist. Court for N. Dist. of Cal, 426 U.S. 394,
403 (1976)). Mandamus is not intended to be a substitute for an appeal after final judgment, and relief
in mandamus generally is not available where a
party has other, adequate means to obtain the relief
sought. See In re Prof's Direct Ins. Co., 578 F.3d 432,
437 (6th Cir. 2009).
Rymer has not demonstrated a clear and indisputable right to relief in mandamus. He has not
demonstrated any basis for the redaction of the district court record, and he may challenge the district
court's rulings in his pending appeal.
Accordingly, the petition for a writ of mandamus is DENIED.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

(2j)

APPENDIX K
NOT RECOMMENDED FOR
FULL-TEXT PUBLICATION
Filed: 01/14/2019
No. 18-5655
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
LINCOLN RYMER,
Plaintiff-Appellant,
v.
ROBERT LEMASTER, DOUG STERRETT in
their individual and official capacities;
UNIVERSITY OF TENNESSEE,
Defendants-Appellees.
ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF
TENNESSEE
ORDER
Before: SILER, ROGERS, and COOK, Circuit
Judges.
Lincoln Rymer, a pro se Tennessee resident,
appeals the district court's judgment dismissing his
complaint for lack of subject-matter jurisdiction, pursuant to Federal Rule of Civil Procedure 12(b)(1), and
for failing to state a claim, pursuant to Federal Rule
of Civil Procedure 12(b)(6). This case has been referred to a panel of the court that, upon examination,
(1k)

unanimously agrees that oral argument is not
needed. See Fed. R. App. P. 34(a).
In October 2016, Rymer filed this lawsuit
against the University of Tennessee ("UT")
and its employees Robert LeMaster, Doug Sterrett,
Laura Sterrett, Roger Oldham, and three
unidentified John Doe defendants, which involved incidents that occurred from 1998 to 2000 while he was
an engineering student at UT at Martin. Generally,
Rymer alleged that, after he voiced his opinion about
the inadequacies of UT's engineering curriculum and
its lack of "hands-on" experience, he was assigned
the task of designing and fabricating a milling machine. He alleged that this assignment was impossible and calculated to silence his criticism of the
curriculum, destroy his reputation with the resultant
bad grade, and force him to drop out of the engineering school. He further contended that the defendants
wrongfully conspired to convert him to Christianity
by means of a "flirty fishing' scheme, which entailed
enlisting an attractive woman to "intercept" him and
him into religion." He claimed that this interaction with an attractive woman caused him to experience a form of insanity that led to his conversion,
overwhelmed his reason from March 1999 until January 2016, and caused various negative consequences over the course of his life.

" get

In addition to multiple state-law claims,
Rymer raised nine federal-law claims alleging
that the defendants: (1) accessed a protected computer in order to learn his sexual and entertainment
preferences, in violation of the Computer Fraud and
Abuse Act, 18 U.S.C. ยง 1030(a)(2)(C); (2) conspired to
convert him to Christianity via the "flirty fishing"
(2k)

scheme, in violation of the First Amendment and 42
U.S.C. ยง 1985(3); (3) assigned him an impossible
school project in retaliation for his statements regarding UT's curriculum, in violation of 20 U.S.C. ยง
1011a; (4) manipulated him into converting to Christianity in retaliation for his statements regarding
UT's curriculum, in violation of 20 U.S.C. ยง 1011a; (5)
engaged in racketeering activity; (6) conspired to engage in racketeering activity in order to silence his
statements regarding UT's curriculum, in violation of
the Racketeer Influenced and Corrupt Organizations
Act, 18 U.S.C. ยง 1962(c) & (d) ("RICO"); (7) denied
him access to educational opportunities through the
"flirty fishing' scheme, in violation of 20 U.S.C. ยง
1681(a) ("Title IX"); (8) disseminated his student information, in violation of the Family Educational
Rights and Privacy Act and Protection of Pupil
Rights Amendment; and (9) conspired to take away
his free will through the "flirty fishing" scheme, in violation of the Thirteenth Amendment and 42 U.S.C.
ยง 1985(3). Rymer submitted an amendment to his
complaint, and the defendants moved to dismiss. The
district court then dismissed Rymer's federal claims
and declined to exercise supplemental jurisdiction
over Rymer's state-law claims. Rymer filed motions
to alter the judgment and to amend the complaint,
which were denied.
On appeal, Rymer voluntarily dismisses Laura
Sterrett and Oldham and abandons all of his federal
claims by failing to brief them except for his claims
relating to the defendants' assignment of an impossible student project in retaliation for his criticism of
UT's engineering curriculum. See Robinson v. Jones,
142 F.3d 905, 906 (6th Cir. 1998). Rymer argues that
(3k)

the district court overlooked his retaliation claims involving the impossible student project due to his
poorly drafted complaint; UT failed to prove that it is
an arm of the State of Tennessee entitled to sovereign immunity; his claims fit into several exceptions
to sovereign immunity; he should have been allowed
discovery and an evidentiary hearing to resolve the
sovereign immunity dispute; the district court erred
by declining to exercise supplemental jurisdiction
over his state-law claims; the district court erred in
its reasoning that the statute of limitations had not
expired because he was mentally incapacitated until
2015 or 2016; and his case should be reassigned to a
different judge upon remand. Rymer also moves for
reconsideration of our order granting appellees an
extension of time to file their brief.
We review de novo a district court's decision to
dismiss a complaint for lack of subject matter
jurisdiction under Rule 12(b)(1). In re Carter, 553
F.3d 979, 984 (6th Cir. 2009). A complaint is subject
to dismissal under Rule 12(b)(1) if the facts, accepted
as true and viewed in the light most favorable to the
plaintiff, show that the court lacks subject-matter jurisdiction. Carrier Corp. v. Outokumpu Oyj, 673 F.3d
430, 440 (6th Cir. 2012). We also review de novo a
district court's dismissal of a complaint pursuant to
Rule 12(b)(6). See Tackett v. M& G Polymers, USA,
LLC, 561 F.3d 478, 481 (6th Cir. 2009). In order to
avoid dismissal, "a complaint must contain sufficient
factual matter, accepted as true, to 'state a claim to
relief that is plausible on its face."' Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). "A claim has facial plausibility when the plaintiff pleads factual
(4k)

content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged." Id. Under this standard, we may not
(( accept conclusory legal assertions that do not include specific facts necessary to establish the cause of
action." Lutz v. Chesapeake Appalachia, LLC, 717
F.3d 459, 464 (6th Cir. 2013). Pleadings drafted by
pro se litigants should be held to a less stringent
standard than those drafted by lawyers and should
be liberally construed, Martin v. Overton, 391 F.3d
710, 712 (6th Cir. 2004), but pro se litigants are not
exempt from the requirements of the Federal Rules
of Civil Procedure, Wells v. Brown, 891
F.2d 591, 594 (6th Cir. 1989).
It is well established that states "possessn certain immunities from suit in . . . federal courts."
Ernst v. Rising, 427 F.3d 351, 358 (6th Cir. 2005). The
nature of a State's "immunity flows from the nature
of sovereignty itself as well as the Tenth and Eleventh Amendments to the United States Constitution." Id. "The immunity also applies to actions
against state officials sued in their official capacity
for money damages." Id. This is because "a suit
against a state official in his or her official capacity is
not a suit against the official but rather is a suit
against the official's office," i.e., against the State itself. Will v. Mich. Dep't of State Police, 491 U.S.
58, 71 (1989).
Rymer first argues that the district court erred
by applying sovereign immunity to his official-capacity claims because UT failed to prove that it is an
arm of the State of Tennessee. Whether an entity is
entitled to sovereign immunity, i.e., whether it is an
(5k)

arm of the state, "is a question of federal law and the
entity asserting the defense bears the burden of
proof." Town of Smyrna v. Mun. Gas Auth. Of Ga.,
723 F.3d 640, 650 (6th Cir. 2013). To determine
whether an entity is an arm of the State, we consider
the following factors: "(1) the State's potential liability for a judgment against the entity; (2) the language by which state statutes and state courts refer
to the entity and the degree of state control and veto
power over the entity's actions; (3) whether state or
local officials appoint the board members of the entity; and (4) whether the entity's functions fall within
the traditional purview of state or local government."
Ernst, 427 F.3d at 359. The State's potential liability
for a judgment is the foremost factor. Id.
Rymer supports his assertion that UT is not
entitled to sovereign immunity by alleging that, over
time, UT has made various private or secret investments that have increased its independence from the
state treasury and would allow UT to pay any adverse judgment from its own funds, thus removing its
former classification as an arm of the State. The defendants, on the other hand, argue that UT is an arm
of the State of Tennessee as a matter of law as
demonstrated by extensive case law and statutory
authority. For instance, Tennessee Code Annotated ยง
49-9-202(a)(1) establishes that the board of trustees
of UT shall consist of Tennessee's commissioner
of agriculture, ten members appointed by the governor, and a non-voting member appointed from the
student body. Thus, the State of Tennessee appoints
the board members and has control over UT's actions. Rymer makes no argument that UT's functions
would fall under the traditional purview of local
(6k)

government, rather than state government. Tennessee law also classifies
all appropriations of state funds and institutional and program revenues previously and
hereafter made to institutions and programs of
higher education shall be state funds and shall
be protected by the state's sovereign immunity
from any court's judgment, decree attachment
or other legal process.
Tenn. Code Ann. ยง 9-1-103 (emphasis added). Thus,
any payment drawn from UT's own revenues to pay a
judgment would nonetheless be a payment of funds
that are under state control under Tennessee law.
UT's entitlement to sovereign immunity is supported
by extensive additional statutory authority and case
law. See, e.g., Tenn. Code Ann. ยง 20-13-102(b); Drew
v. Univ. of Tenn. Reg? Med. Ctr. Hosp., No. 99-5070,
2000 WL 572064, at *3 (6th Cir. May 1, 2000) (holding that the UT Medical Center is entitled to sovereign immunity because it is part of UT, and noting
that courts have repeatedly determined that UT is
an arm of the State of Tennessee); Jain v. Univ. of
Tenn. At Martin, No. 87-6068, 1988 WL 30070, at *1
(6th Cir. Apr. 6, 1988) (affirming the district court's
conclusion that UT is an arm of the State of Tennessee and entitled to sovereign immunity); Galloway v.
Univ. of Tenn., No. 3:06-cv-00461, 2007 WL 2263103,
at *2 (E.D. Tenn. Aug. 2, 2007) (concluding that UT
is an arm or alter ego of the State of Tennessee);
Univ. of Tenn. V U.S. Fid. & Guar. Co., 670 F. Supp.
1379, 1383-84 (E.D. Tenn. 1987) (analyzing the statutory scheme establishing UT and concluding that it
is "an agency or alter ego of the State"); LaManna v.
Univ. of Tenn., 462 S.W.2d 877, 878 (Tenn. 1971); see

(7k)

also Woolsey v. Hunt, 932 F.2d 555, 565 (6th Cir.
1991) (holding that our ruling in Soni v. Bd. of Trs.
Of Univ. of Tenn., 513 F.2d 347 (6th Cir. 1975), that
UT had waived its sovereign immunity was superseded by the Tennessee legislature's enactment of
Tennessee Code Annotated ยง 20-13-102(b) in 1977).
Accordingly, the district court did not err in its conclusion or by declining to hold an evidentiary hearing
on UT's status as an arm of the State of Tennessee.
Rymer also argues that, even if UT is entitled
to sovereign immunity, his retaliatory-student-project claim falls into an exception. There are three exceptions to a State's sovereign immunity: (1) the
State has consented to suit; (2) when the exception
set forth in Exparte Young 209 U.S. 123 (1908), applies; and (3) when Congress has clearly and expressly abrogated the State's immunity. Puckett v.
Lexington-Fayette Urban Cty. Gov't, 833 F.3d 590,
598 (6th Cir. 2016).
Rymer argues that the Higher Education Act,
20 U.S.C. ยง 1011a, creates a private right of action,
and thus UT's sovereign immunity was abrogated
when it accepted federal funding pursuant to 42
U.S.C. ยง 2000d-7. However, the Higher Education
Act does not create a private right of action and instead "provides for enforcement through an administrative action brought by the Secretary [of Education]." Thomas M. Cooley Law Sch. V Am. Bar Ass'n,
459 F.3d 705, 710-11 (6th Cir. 2006).
Rymer also invokes Exparte Young as an exception to sovereign immunity. Sovereign immunity
does not apply to official-capacity claims seeking
(8k)

prospective injunctive relief to end a continuing violation of federal law. 209 U.S. at 159-60. The allegedly wrongful actions of the defendants have long
since concluded, however, and Rymer did not seek
prospective injunctive relief in his complaint.
Rymer also argues that LeMaster and Doug
Sterrett waived their entitlement to sovereign
immunity by assigning him an impossible university
project, which Rymer claims was outside of their authority as UT officials. Rymer claims that the project
was outside the scope of the defendants' authority because it was assigned for retaliatory reasons. "State
officials are not entitled to eleventh amendment immunity if they are acting ultra vires, that is without
proper authority." Miami Univ. Associated Student
Gov't v. Shriver, 735 F.2d 201, 204 (6th Cir. 1984).
Rymer did not, however, make any non-conclusory
allegations that demonstrated that the assignment of
a student project exceeded the scope of a university
official's authority.
Even assuming that Rymer is correct that
such an assignment exceeded the scope of the
defendants' authority, the district court dismissed
his individual-capacity claims against LeMaster and
Doug Sterrett because they were "supported by nothing more than conclusory allegations and recitations
of the elements of his claims," and thus failed to state
plausible claims for relief pursuant to Federal Rule
of Civil Procedure 12(b)(6). See Iqbal, 556 U.S. at
678. Rymer's claims involving the retaliatory student project challenged on appeal concern alleged
violations of 20 U.S.C. ยง 1011a and 18 U.S.C. ยง 1962.
First, as discussed previously, the Higher Education
(9k)

Act does not create a private right of action. See
Thomas M Cooley Law Sc.h., 459 F.3d at 710-11. Second, "[t]o state a RICO claim, a plaintiff must plead
the following elements: `(1) conduct (2) of an enterprise (3) through a pattern (4) of racketeering activity."' Ouwinga v. Benistar 419 Plan Servs., Inc., 694
F.3d 783, 791 (6th Cir. 2012). Rymer alleged racketeering activity in the form of violations of 18 U.S.C.
ยงยง 1341 (relating to mail fraud) and 1343 (relating to
wire fraud). Rymer organized his alleged concrete instances of racketeering activity into a
table attached to his complaint, but the table exclusively contains LeMaster's instructions to Rymer on
how to research the milling-machine project, Rymer's
collection of information from outside parties regarding the project, LeMaster's awarding Rymer a grade
of "D+," and Rymer's mailing his own grade transcript to a prospective employer. These allegations
are not sufficient to demonstrate "a pattern of racketeering activity" and do not even mention any actions
taken by anyone other than LeMaster and Rymer
himself. Rymer's remaining conclusory allegations
are insufficient, see Iqbal, 556 U.S. at 678, and the
district court did not err in dismissing these claims.
Rymer attempted to raise a retaliatory-student-project claim pursuant to 42 U.S.C. ยงยง 1983 and
1985(3) and the First Amendment in his motion to
amend the complaint brought pursuant to Federal
Rules of Civil Procedure 15 and 59(e). The district
court denied Rymer leave to amend because these
claims could not withstand a Rule 12(b)(6) motion to
dismiss. On appeal, he argues that he should have
been allowed to amend his complaint post-judgment
to include these claims because he had poorly drafted
(10k)

his complaint. Under Rule 15, a district court should
freely allow requests to amend a complaint, but when
such a request is filed after a judgment against the
plaintiff, the court must "considerl] the competing interest of protecting the finality of judgments and the
expeditious termination of litigation." Leisure Caviar, LLC v. U.S. Fish & Wildlife Serv., 616 F.3d 612,
615-16 (6th Cir. 2010) (alteration in original) (quoting
Morse v. McWhorter, 290 F.3d 795, 800 (6th Cir.
2002)). Thus, Rymer had the heavy burden of proving
that the district court's decision resulted in a "clear
error of law" and that his additional claims were
based on "newly discovered evidence," "an intervening change in controlling law," or "a need to prevent
a manifest injustice." Id. at 615. "A plaintiff cannot
use a Rule 59 motion (or for that matter a post-judgment Rule 15 motion) 'to raise arguments which
could, and should, have been made before judgment
issued."' Id. at 616 (quoting Sault Ste. Marie Tribe of
Chippewa Indians v. Engler, 146 F.3d 367, 374 (6th
Cir. 1998)). Rymer did not meet this heavy burden,
and the district court did not abuse its discretion in
denying Rymer post-judgment leave to amend his
complaint.
Because the district court properly dismissed
Rymer's claims pursuant to Rule 12(b)(1) and Rule
12(b)(6), we need not address whether the district
court's reasoning concerning the statutes of limitations was correct. The district court also did not
abuse its discretion by dismissing Rymer's federal
claims with prejudice. See Craighead v. E.F. Hutton
& Co., 899 F.2d 485, 495 (6th Cir. 1990). In addition,
the district court correctly declined to exercise

(11k)

supplemental jurisdiction over Rymer's state-law
claims once his federal claims had been dismissed.
See 28 U.S.C. ยง 1367(c)(3).
For the reasons discussed above, we AFFIRM
the district court's judgment. Rymer's motion to reconsider our order granting appellees an extension of
time to file their brief is DENIED.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

(12k)

APPENDIX L
The following order does not state the true facts. I
filed a petition under Fed. R. App. P. 35 and 40 for a
panel rehearing and an en bane rehearing.
Filed: 02/22/2019
No. 18-5655
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
LINCOLN RYMER,
Plaintiff-Appellant,
v.
ROBERT LEMASTER, DOUG STERRETT in
their individual and official capacities;
UNIVERSITY OF TENNESSEE,
Defendants-Appellees.
ORDER
Before: SILER, ROGERS, and COOK,
Circuit Judges.
The court received a petition for rehearing en
bane. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original submission and decision of the case. The petition then
was circulated to the full court. No judge has requested a vote on the suggestion for rehearing en
banc.

(1L)

Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

(2L)

